<html>
<title> - THE GULF COOPERATION COUNCIL CAMP DAVID SUMMIT: ANY RESULTS?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   THE GULF COOPERATION COUNCIL CAMP DAVID 
                              SUMMIT: ANY RESULTS?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2015

                               __________

                           Serial No. 114-68

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                         U.S. GOVERNMENT PUBLISHING OFFICE
95-423PDF                    WASHINGTON : 2015                        

                              
________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3057405f705345434458555c401e535f5d1e">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Michael Eisenstadt, Kahn Fellow, Director, Military and 
  Security Studies Program, The Washington Institute for Near 
  East Policy....................................................     6
Mr. J. Matthew McInnis, Resident Fellow, American Enterprise 
  Institute......................................................    13
David Andrew Weinberg, Ph.D., Senior Fellow, Foundation for 
  Defense of Democracies.........................................    23
Kenneth Katzman, Ph.D., Specialist in Middle Eastern Affairs, 
  Congressional Research Service.................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Michael Eisenstadt: Prepared statement.......................     9
Mr. J. Matthew McInnis: Prepared statement.......................    15
David Andrew Weinberg, Ph.D.: Prepared statement.................    25
Kenneth Katzman, Ph.D.: Prepared statement.......................    64

                                APPENDIX

Hearing notice...................................................    92
Hearing minutes..................................................    93
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    94


      THE GULF COOPERATION COUNCIL CAMP DAVID SUMMIT: ANY RESULTS?

                              ----------                              


                         THURSDAY, JULY 9, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:19 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. This subcommittee will come to order. 
After recognizing myself and ranking member, my good friend, 
Ted Deutch, for 5 minutes each for our opening statements, I 
will then recognize any other members seeking recognition for 1 
minute. We will then hear from our witnesses. Thank you for 
your patience. We had unscheduled votes come up, and we were 
there for 45 minutes, so we thank you for that.
    Without objection, your prepared statements will be made a 
part of the record, and members may have 5 days to insert 
statements and questions for the record subject to the length 
and limitations in the rules.
    The Chair now recognizes herself for 5 minutes.
    As we continue to analyze the impact of a weak nuclear deal 
with Iran, it is important to examine how the Gulf Cooperation 
Council, the GCC, will be directly impacted by these policy 
decisions. There is no question that our relationships with the 
Gulf countries have been severely strained in recent years. It 
should be no surprise that our Gulf allies believe that the 
United States has turned its back on them, and that we are not 
committed to seeking stability in the Middle East.
    First, by signaling a preference to focus attention outside 
of the Middle East with the so-called ``Asia pivot''; second, 
by initiating naive rapprochement with Iran; and third, by not 
following through on the President's red lines in Syria. So 
that was the backdrop of the Camp David Summit that occurred 
with the GCC just 2 months ago. GCC countries see the desire to 
legitimize Iran as a power and counterweight in the region as 
the motivation for current U.S. policy, a policy that 
destabilizes the region as we see Iranian influence expand in 
Iraq, in Syria, in Lebanon, in Yemen, and elsewhere. They see 
the failure to take a strong stance against Iran's ally, Assad, 
or to enforce the red line against the use of chemical weapons 
as evidence of the desire not to upset Iran.
    And let's not be fooled, any signing bonus or currency 
injection going to Iran from sanctions relief will be spent on 
Iran fomenting hegemonic ambitions in the region, which is 
another cause for concern for the GCC countries. At a time when 
we need as many partners as possible in the fight against ISIL 
and in the fight against Iran's support for terror, now is not 
the time for the administration to be alienating some of the 
GCC members, especially Saudi Arabia and the UAE, who have been 
part of the coalition against ISIL and have helped launch 
strikes against the terror group in Syria.
    The GCC countries have also led the coalition against the 
Iranian-backed Houthis in Yemen, while we continue to ignore 
Iran's meddling in regional issues. So how does the 
administration respond to these countries that we need as 
partners, that we need to trust in the fight against ISIL and 
other terror groups? By trying continuously to pursue a nuclear 
deal with Iran that they will never accept, only to try to buy 
the GCC countries off with sales of advanced military systems.
    For years, many of us have said that a nuclear Iran would 
lead to a nuclear arms race in the region, and that can still 
happen. But now a nuclear deal with Iran is also leading to a 
conventional arms race in the region. So while on one hand the 
U.S. was partially responsible for giving legitimacy to Iran 
and letting it become a larger menace in the region, on the 
other hand the U.S. is trying to sell these military systems to 
act as a deterrent against Iran. Instead of just trying to 
prevent the problem in the first place, the administration has 
chosen to treat the symptoms without addressing the underlying 
disease.
    I also recognize that not all of the GCC countries have 
been ideal partners, and some haven't taken the necessary steps 
to stop terror financing and the undermining of U.S. national 
security interests. I am concerned that while some GCC 
countries will use our additional weapons for good and as 
partners in the fight against ISIL, others are only using this 
as an excuse to get arms for their own purposes.
    In addition, human rights and the rule of law concerns 
continue in some GCC countries, but they have figured out our 
playbook. As long as they provide the U.S. with bases and are 
willing to host our troops, they know that the U.S. will look 
the other way when it comes to their many transgressions.
    The other concern I have is with the objective of the most 
recent Camp David Summit and how it relates to Israel's 
qualitative military edge. We must be mindful that upholding 
Israel's qualitative military edge is the law of the land. Yet, 
many in the public did not notice that when the President 
signed the U.S.-Israel Strategic Partnership Act in December 
2014, which was sponsored by Congressman Deutch and me, the 
President issued a signing statement saying that his 
administration would not implement the section that pertains to 
Israel's qualitative military edge. That is very concerning. 
What kind of message are we sending to our greatest major 
strategic partner in the Middle East, the democratic Jewish 
state of Israel. We need to take these military sales requests 
on a case-by-case basis.
    Some GCC countries have been at the forefront of leading 
the fight against ISIL, which is a positive step forward. With 
ongoing military operations in Yemen, Libya and throughout the 
region, some GCC countries have shown that they have the 
political will and they have the dedication to take this fight 
head on, and these countries should be supported.
    We should be renewing our commitment to the Middle East and 
our GCC allies and combating Iranian aggression, not pulling 
back from this critical region of the world. And with that, I 
turn to my friend, the ranking member, Mr. Deutch.
    Mr. Deutch. Thank you very much, Madam Chairman. Thank you 
for calling today's hearing.
    The announcement that President Obama would be convening 
GCC leaders at Camp David came on the heels of the April 
nuclear framework agreement with Iran. There was, in no 
uncertain terms, meant to reassure our allies that any 
impending deal would not result in greater Iranian interference 
or destabilization in the Middle East. I know that when this 
hearing was first noticed, we expected to be examining U.S.-
Gulf relations in the wake of a final Iran nuclear deal. We are 
still waiting to hear whether P5+1 negotiators will reach a 
deal, and whether or not that deal would be acceptable, not 
just to Members of this Congress, but to our allies in the 
region.
    However, Camp David Summit didn't just focus on Iran, and 
today's hearing provides us with an opportunity to assess the 
ways in which we can bolster cooperation with the GCC countries 
to enhance our mutual security concerns and strategic 
objectives on a range of issues. There has been--there is no 
doubt that there have been growing pains in our relations with 
the GCC in recent years, and there has been frustrations on 
both sides. The United States was deeply troubled by the early 
financing of extremist elements on the fight against Assad by 
some Gulf actors. The GCC countries, in turn, have been 
frustrated with what they perceive as a lack of action by the 
U.S. against Assad.
    The GCC has been wary of American engagement with Iran. The 
U.S. has struggled to strengthen and reassure our partners, 
while also balancing what are legitimate human rights concerns. 
But as with any relationship, we have got to be able to air 
these grievances while also looking for ways to move forward 
together to confront our shared challenges.
    The question is, did Camp David do enough to put us back on 
the right path. Current U.S.-GCC relations have been dominated 
by the Iranian nuclear threat in the fight against ISIS. Gulf 
states are allied in the coalition to fight ISIS, but it 
appears some countries have not fully lived up to their 
commitments to coalition. Nonetheless, continued GCC support in 
terms of intelligence sharing, stopping ISIS financing, and 
preventing foreign fighters from joining ISIS are critical to 
our efforts.
    We continue to cooperate against Iran's terror proxy, 
Hezbollah, and our efforts to keep it from propping up the 
Assad regime and expanding its regional influence. These 
concerns are also shared by our ally, Israel. The unique 
alignment of security concerns for the Gulf and Israel have 
presented U.S. with an opportunity to foster greater regional 
cooperation. It was revealed in June that an unprecedented five 
bilateral meetings had been held between Israelis and Saudis to 
address the Iran threat.
    So how do we move forward together to serve our mutual 
interests? Camp David Summit resulted in agreement to bolster 
defense sales. Some argue that increased sales to the GCC 
countries are beneficial because they not only increase our 
interoperability, but because these are foreign military sales, 
meaning that they are not paid for with U.S.-provided security 
assistance. So they are a boon to the American economy.
    There are those who argue that if American made equipment 
is not for sale, our friends will turn elsewhere. In this 
increasingly volatile region, we do need to ensure our allies 
can both be active participants in combating shared threats, 
and also maintain their own defenses. Of course, any serious 
increase in these sales must carefully be vetted to ensure that 
Israel retains its qualitative military edge.
    However, while defense sales have been a pillar of our 
relationship with the GCC countries, it cannot be the only leg 
on which these relationships stand. I was pleased to see the 
GCC summit include commitments to also increase maritime 
security, cyber security, and counterterrorism cooperation. 
These, too, are critical pieces of the security puzzle.
    The Iranian navy is well-funded and active. The U.S., in 
conjunction with our partners, must be able to patrol the Gulf, 
particularly in Strait of Hormuz. Just a few months ago, we saw 
Iran illegally detain and board a commercial vessel passing 
through the Strait. And as Mr. Katzman notes, one-third of the 
internationally traded oil flows through that Strait. In 
addition, we share with the GCC a serious and real concern 
about Iran's regional meddling. Bahrain and Saudi Arabia, in 
particular, have accused Iran of stirring dissent among their 
populations.
    In Yemen, Iran has long backed the Houthi rebels. And as 
the Houthis move to depose the U.S.-backed Hadi Government, 
Saudi Arabia intervened. Many saw this move by Saudi Arabia as 
a reaction to years of U.S. prodding to take a greater 
leadership role in regional security.
    Outside of the security realm, there are additional steps 
that can be taken to strengthen the GCC. If the price of oil 
remains low, the GCC countries could lose over $200 billion, 
according to recent reports. Strengthening U.S. Gulf economic 
ties outside of the oil trade could help offset the deepened 
oil prices. As many GCC countries look to diversify their 
economies, there are numerous opportunities for cooperation on 
science and technology. In fact, many U.S. universities have 
built campuses in recent years in cities like Abu Dhabi and 
Doha.
    Finally, we have to have constructive dialogue with our 
partners. While some saw the absence of several heads of state 
from the Camp David Summit as a blow to the administration, the 
opportunity for the President of the United States to speak 
directly with GCC top leadership was tremendously important. As 
I said before, as important as it is to present a united front 
with our allies, we won't agree on everything. So for the Gulf 
states, they must be able to share concerns about the 
implications of a potential Iran deal on regional 
proliferation, or the impact sanctions relief could have on 
Iran's ability to export terror.
    Equally, we must have avenues to address our concerns about 
human rights violations. I believe in the importance of our 
relationships with Saudi Arabia, Qatar, UAE, Bahrain, Oman, and 
Kuwait. I want to see these relationships stabilize and 
strengthen both on a bilateral and a multilateral basis, and I 
believe Camp David was a good first step. But to sustain this 
progress, we have to make a real commitment on both sides to 
continue cooperation and consultation. I look forward to 
discussing with our panel the ways in which we can help to 
encourage that process. And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, for your 
statement. Mr. Weber of Texas is recognized.
    Mr. Weber. Madam Chair, I am ready to listen.
    Ms. Ros-Lehtinen. That is very charming of you. Thank you.
    Mr. Boyle, we are ready to listen to you.
    Mr. Boyle. Well, now that really makes me look bad for 
wanting to say something.
    Mr. Weber. I am reclaiming my time--no.
    Mr. Boyle. I will just briefly say, I want to associate 
myself with the very thoughtful comments of Mr. Deutch, and I 
am very interested in this topic, especially the fact that this 
was when they were at Camp David, and for a fairly significant 
amount of time, this was much in the news and now has largely 
been forgotten. Certainly, whatever comes about in this part of 
the world and whatever resolution we may or may not reach with 
Iran will affect our partners and Saudi Arabia, and in the 
broader Arabian peninsula and what actions they may take in 
response. So making sure that we maintain a close relationship 
with them is of vital U.S. importance, and with that, I will 
yield 6 seconds back. So I almost didn't speak, but----
    Ms. Ros-Lehtinen. Well, after your critical Oreo speech on 
the floor----
    Mr. Boyle. Thank you. Say no to Oreo.
    Ms. Ros-Lehtinen. That was riveting. We all were attuned to 
that. That is an inside joke. We will explain later.
    We are so pleased to introduce our witnesses. First, we 
would like to welcome Mr. Michael Eisenstadt, who is the Kahn 
fellow and director of the Washington Institute, Military and 
Security Studies Program.
    Mr. Eisenstadt is a specialist in Persian Gulf security 
affairs. And, previously, he served as an officer in the U.S. 
Army Reserves and as a military analyst with the U.S. 
Government.
    Thank you for your service, Mr. Eisenstadt.
    Second, we welcome back Mr. Matthew McInnis, who is a 
resident fellow at the American Enterprise Institute where he 
focuses on regional security issues of the Persian Gulf. Prior 
to this, Mr. McInnis served as a senior analyst at the U.S. 
Central Command and on leadership and advisory positions for 
the multi-national force in Iraq.
    Thank you.
    Next, we welcome Dr. David Andrew Weinberg, who is a senior 
fellow at the Foundation for Defense of Democracies where his 
primary research is on Saudi Arabia and Gulf affairs. He was a 
professional staffer for this committee and survived that, and 
he was a visiting fellow at the UCLA Center for Middle East 
Development.
    Welcome back, Dr. Weinberg.
    And last, but certainly not least, we really welcome back 
Dr. Kenneth Katzman, who serves as a senior Middle East analyst 
for the Congressional Research Service. Formally, Mr. Katzman 
was an analyst for the Central Intelligence Agency and also 
worked as a consultant for the defense industry for 2 years.
    Thank you, gentlemen, for being here. And we would love to 
hear from you. Feel free to summarize.
    Let me just ask 1 second, if Mr. Connolly would like to 
make an opening statement. We would be honored to hear from 
you, Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. I think in order 
to get on with the hearing, I will dispense with an opening 
statement. Obviously, we are quite interested in the reaction 
of the GCC. We have heard lots of speculation this morning 
about what the reaction might be in the event of a successful 
negotiated agreement, but would be delighted to hear from this 
panel in terms of their points of view.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    So, Mr. Eisenstadt, we will begin with you.

  STATEMENT OF MR. MICHAEL EISENSTADT, KAHN FELLOW, DIRECTOR, 
MILITARY AND SECURITY STUDIES PROGRAM, THE WASHINGTON INSTITUTE 
                      FOR NEAR EAST POLICY

    Mr. Eisenstadt. Chairman Ros-Lehtinen, Ranking Member 
Deutch, distinguished subcommittee members, thank you for 
inviting me to testify on the state of U.S.-GCC relations. It 
is an honor for me to be here. The high-level summit in Camp 
David last May with leaders of the six GCC states focused on 
assuring them that the U.S. remains committed to their 
security, while winning their support for the nuclear deal 
being negotiated with Iran. A joint statement released at the 
Summit included U.S. security assurances to the GCC and 
described the outlines of ``a new U.S.-GCC strategic 
partnership,'' that committed the United States and the GCC to 
enhance cooperation in a number of areas.
    While many of the announced measures would mark a step 
forward in U.S.-GCC relations, much will depend on follow-
through in the months and years to come. Particularly with 
regard to countering Iran's destabilizing activities in the 
region. This is a central concern of Gulf leaders who are 
already deeply concerned about Iran's growing regional 
influence, and who are worried that in the event of a long-term 
nuclear accord between the P5+1 and Iran, the latter would use 
funds obtained through sanctions relief and its status as a 
nuclear threshold state to further advance its regional agenda.
    Absent action on this front, many of the announced steps 
are unlikely to have significant impact on the broader fabric 
of U.S.-GCC relations. The roots of the growing distrust 
between the two sides can be traced to the 2003 invasion of 
Iraq and the perception that much of the region that the United 
States had to either incompetence or design turned over Iraq to 
the Shiites and Iran. This was reinforced by the widespread 
perception in the GCC and among other regional allies that when 
it entered office, the Obama administration too eagerly courted 
traditional enemies, such as the Islamic Republic of Iran at 
the expense of its traditional allies, and too quickly 
abandoned traditional allies, such as Hosni Mubarak during the 
initial phases of what was then called the Arab Spring.
    So to be fair, there was really not all that much, I think, 
that the U.S. could have done differently with regard to 
Mubarak. This destructive dynamic was further strengthened by 
the Obama administration's tendency to frame and implement 
measures to assure the GCC states in ways that tended to 
exacerbate rather than allay their fears. This is best 
illustrated by the following examples: First, in recent years, 
the United States has sold tens of billions of dollars in arms 
to its Gulf Arab allies. The intent has been to assure them by 
enhancing their ability to deter and counter external 
aggression.
    Yet Tehran is then likely to engage in the conduct of 
conventional aggression that would provide its neighbors and 
the United States with reason to respond by conventional means. 
It is much more likely to engage in subversion and proxy 
warfare as it has done in the past and continue to do today. 
And in light of the administration's announced rebalance to 
Asia and the President's statement in an interview with Thomas 
Friedman in April, that ``The U.S.'s core interests in the 
region are not oil,'' GCC leaders may view large U.S. arms 
sales less as a tangible expression of enduring commitment than 
a sign that Americais providing its friends with the means to 
fend for themselves as it prepares to leave the region.
    Second, while the United States has drawn down its presence 
in Iraq and Afghanistan in recent years, it has increased other 
aspects of its presence around the Gulf as part of its efforts 
to assure allies and deter Iran. Yet, there is no sign that the 
large post-1991 U.S. military presence in the Gulf deterred 
Iran from using proxies to target U.S. interests in the region 
and elsewhere. Furthermore, our GCC allies are frequently 
reminded by U.S. officials that America continues to maintain 
some 35,000 servicemembers in the region, but this has led them 
to question the purpose of such a large show of presence at a 
time when Iran and Hezbollah's intervention has contributed to 
the death of more than 200,000 Syrians, mostly Sunni civilians, 
amid U.S. inaction.
    And even when Washington finally did act against ISIL, it 
did so at least initially on behalf of beleaguered Iraqi 
minorities, the Yazidis in Sinjar, Turkmens at Amerli, and 
Kurds in Erbil, rather than Sunni Arabs.
    Third, while President Obama declared in January 2012 that 
if Tehran tried to build a nuclear weapon, the U.S. would use 
all its means at its disposal to prevent it from doing so. 
Since then, he has tended to couch his threats in passive 
language that conveys more ambivalence than resolve. Thus, in a 
March 2012 interview with Jeffrey Goldberg he stated, when the 
U.S. says it is unacceptable for Iran to have nuclear weapons, 
we mean what we say.
    In sum, the U.S. has a credibility deficit with its GCC 
partners that threatens its interests and endangers its allies 
in the region. The steps it has taken in the past to assure its 
GCC allies, arms transfers, forward presence, and red lines, 
often fail to allay their doubts and frequently compounded 
their fears. In this light, the steps promised at a Camp David 
Summit do not constitute a game changer in U.S.-GCC relations, 
because the joint statement is so vague regarding specific 
steps to counter Iran's destabilizing activities. Only by 
pushing back against Iran's efforts to expand its regional 
influence can Washington hope to restore its credibility.
    There is no reason that such a policy cannot go hand and in 
with engaging Iran, just as the U.S. pushed back against Soviet 
aggression while engaging Moscow during the Cold War. For as 
much it may be in the American interest to conclude a long-term 
nuclear accord with Tehran, it is also U.S. interest to curb 
Iranian activities that fuel sectarian violence, contribute to 
the appeal of groups such as Jabhat al-Nusra and ISIS and 
ultimately threaten the stability and security and of the U.S. 
allies in the region. Such a policy would also go a long way 
toward repairing ties with traditional allies in the part of 
the world that still very much matters to U.S. security. I 
apologize for going over.
    [The prepared statement of Mr. Eisenstadt follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
                              ----------                              

    Ms. Ros-Lehtinen. It was fine. Thank you so much.
    Mr. McInnis.

STATEMENT OF MR. J. MATTHEW MCINNIS, RESIDENT FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. McInnis. Chairman Ros-Lehtinen, Ranking Member Deutch, 
and distinguished members of the subcommittee, thank you for 
inviting me to testify here today on the impact of the 
potential nuclear deal on our allies from the Gulf Cooperation 
Council. And let me begin with how Iran perceives this changing 
strategic environment and their contest with the Gulf states. 
Since the 1979 revolution, Iran has sought to spread its 
concepts of Islamic governance and to assert its regional 
hegemony by displacing the United States as the dominant power. 
Since the fall of Saddam Hussein's Iraq, countering the Kingdom 
of Saudi Arabia and the Gulf states has dominated Iran's 
regional calculations. Saudi Arabia poses a unique ideological 
challenge to Tehran's attempts to assert its leadership in the 
Muslim world. The GCC states are increasingly alarmed about 
expanding Iranian influence in the Middle East, but seem unable 
to develop an effective means to push back against Tehran's 
growing influence and power.
    For the past 36 years, Tehran has pursued its objectives 
against the GCC primarily through clandestine operations. In 
particular, Iran has utilized its resistance network of 
partners, proxies, and terrorist groups, including Lebanese's 
Hezbollah and others, while employing a suite of deterrence 
capabilities, including ballistic missiles and asymmetric naval 
platforms. With the new Saudi leadership under King Salman, 
Tehran is recalculating its threat perceptions and response. 
Iranian leaders worry that the GCC's expanded interventions in 
Yemen and Syria come as a result of U.S. encouragement perhaps 
at the Camp David Summit for the Gulf states to take a more 
leading role in countering Iran's destabilizing activities. A 
more active Saudi Arabia poses a risk to Iran's long-term 
objectives. Tehran may even be worried that Saudi Arabia, 
underwritten by its own financial holdings and U.S. military 
support, will begin using the IRGC's own playbook of regional 
proxy warfare against Iran. Considering these fears, it is 
important for us to look at how a nuclear deal will impact 
Iran's strategy toward the GCC and the rest of the region.
    Supreme Leader Khamenei has not shown any indication that a 
nuclear deal will fundamentally alter Iran's regional policies 
toward the United States, our allies in the Gulf, and even 
Israel. The IRGC may initially become even more assertive 
against the GCC, the United States or Israel, as the Iranian 
leadership tries to establish its anti-Western and an anti-
Zionist credentials following a nuclear deal. Tehran, however, 
will likely try to limit any resulting conflict escalation that 
could credibly endanger the world power's support for the 
agreement, especially with a new U.S. President entering office 
in 2017.
    The bulk of Iran's estimated $150 billion windfall from a 
nuclear deal will likely go to internal economic investment as 
the U.S. administration argues. This does not mean that the 
Iranian leadership will not have access to billions more to 
allocate to the IRGC's efforts in Iraq, Syria, and around the 
region. We should not underestimate how far Iran will go to 
defend its interests in Beirut, Damascus, and Baghdad, as well 
as to attempt to expand its activities in Yemen, Bahrain, the 
Palestinian territories, and elsewhere.
    More critically, if the IRGC decides to send actual combat 
forces into Syria to fight the GCC or Turkish-backed opposition 
groups, or into Iraq to fight ISIL, we risk potential serious 
miscalculations by Turkey, the GCC, or Israel. The United 
States must be prepared for and try to prevent, if possible, 
escalation by these regional powers in response to a direct 
Iranian intervention. With this in mind, here are four 
recommendations that the United States should consider to best 
support our allies in the region: First, prevent the 
conventional forces' balance of power in the Gulf from eroding 
in Iran's favor, which a removal of the conventional arms 
embargo would do, which is being discussed potentially in 
Vienna. Congress should carefully scrutinize the Iranian 
nuclear deal to mitigate any weakening of the arms embargo or 
missile technology import restrictions that are currently in 
place. Second, reinforce the U.S. commitment to the region's 
security through enhanced defense agreements with the GCC, 
mindful to maintaining Israel's qualitative military edge. We 
may want to consider elevating the relationship by signing 
security treaties, but should avoid pursuing concepts such as a 
nuclear umbrella. Third, help the GCC develop better asymmetric 
warfare capabilities for both defensive and potentially 
offensive capabilities.
    President Obama's comments at the Camp David Summit implied 
that the Gulf states already have sufficient resources to push 
back against Iran's destabilizing activities in the region. We 
need to go further. The United States and the GCC have a shared 
interest in contesting the IRGC, and formation of an Arab rapid 
reaction force would be a step forward in that directs.
    Finally, we should focus diplomatic, legislative, 
intelligence, and military strategies for shaping the post-2025 
environment, once Iranian uranium enrichment and nuclear 
research and development restrictions expire under a potential 
deal, to ensure Iran remains deterred from achieving a nuclear 
weapon. This should include ensuring that the United States 
maintains a robust military option to degrade or destroy 
Iranian infrastructure.
    Taking these steps will help assure our Gulf partners at a 
time of increasing doubt about U.S. commitment to their 
security as well as mitigate the impact the Iran nuclear deal 
will have on our position in the region. Thank you very much.
    [The prepared statement of Mr. McInnis follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
           
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Mr. McInnis.
    Dr. Weinberg.

   STATEMENT OF DAVID ANDREW WEINBERG, PH.D., SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Weinberg. Chairman Ros-Lehtinen, Ranking Member Deutch, 
and distinguished members of the subcommittee, thank you for 
this opportunity to testify before you today.
    America's relations with the GCC states are on the wrong 
track. Each side offers the others some benefits, yet our main 
interests continue to go unfulfilled. Today I will cover four 
main topics on this regard: Threats from Iran, negligence on 
terror finance, religious incitement, and abuses of basic 
rights.
    On Iran, our Sunni-ruled Gulf allies see the pursuit of a 
nuclear bargain with their main enemy and Washington's 
disengaged approach to the conflicts in Syria, Iraq, and Yemen, 
and they wonder if they are on the fast track to abandonment. 
These states perceive an imminent threat from Iran's Islamic 
Revolutionary Guard Corps, which, as Mr. McInnis indicated, 
will inevitably share in any windfall from sanctions relief.
    The U.S. should offer the GCC states explicit commitments 
about how we will respond to cheating on a nuclear deal, and 
how we will prevent Iran from obtaining the bomb after the deal 
begins to sunset. That said, we should also press Riyadh to 
take its own confidence-building steps to prove their own 
nuclear program will also stay peaceful.
    With regard to regional conflicts and Iran's destabilizing 
activities, we should strive to get Iran-backed militias in 
Iraq off of the front lines in Sunni majority areas of the 
country, such as in the effort to retake Ramadi. In Yemen, we 
should help make the Saudi-backed arms embargo more 
sustainable, specifically by finding ways to mitigate its 
significant humanitarian impact.
    In Syria we should boost support for the moderate 
opposition, including providing air cover where appropriate, 
but impose sanctions on groups like Ahrar al-Sham, Jund al-
Aqsa, and the Army of Conquest, urging Gulf states to similarly 
choke off support. Unfortunately, in the fight against ISIL and 
al-Qaeda, our GCC allies have broken their word in two critical 
regards that they pledged on the last anniversary of 9/11: To 
end the impunity of terror financiers and to halt the religious 
incitement that feeds extremist recruitment.
    They agreed to take these steps when they joined the anti-
ISIL coalition, yet still today, little has changed. Last year 
America's czar for combating terror finance revealed that the 
majority of private support reaching al-Qaeda's core leadership 
in Pakistan came from the Gulf. The worst offenders were Qatar 
and Kuwait. Yet neither country has taken noteworthy legal 
action against individuals on U.S. or U.N. terror lists.
    For example, it appears that Muthanna al-Dhari, whom the 
U.S. and U.N. charged with providing over $1 million to the 
group we now know as ISIL, was let into Qatar yet again last 
month since the Camp David Summit, in violation of his U.N. 
travel ban, and earlier this year he was hugged and kissed by 
the Qatari Emir's father. Kuwait released two men sanctioned by 
the U.S. as al-Qaeda financiers several hours after detaining 
them. For the fourth time last week, Israel accused another 
Hamas operative in Doha of directing a West Bank terror cell, 
and I believe Congress can take some constructive steps to 
address this challenge. We should not let the Gulf states' 
lucrative arms purchases or desire to invest in U.S. assets 
crowd terror finance off the agenda, and we should not wait to 
insulate our economy from Gulf energy disruptions via a 
national strategy for transportation fuel choice.
    As for incitement, Saudi Arabia and Qatar have recklessly 
supported religious leaders who propagate hatred. To highlight 
one example, Representative Deutch, you mentioned U.S. campuses 
in Doha, for instance. Yet, we found that the mosque that 
serves the U.S. universities in Doha's Education City, campuses 
like Northwestern University and Texas A&M, when the mosque was 
inaugurated earlier this year, the ceremony was sponsored by 
the Emir of Qatar's mother. The preacher who was invited to 
give the sermon has memorably called on Qatar TV saying that 
Osama bin Laden died with more dignity and honor than any 
infidel, such as any Christian, any Jew, any apostate, any 
atheist, any Zoroastrians. This is very discouraging rhetoric, 
and unfortunately these sorts of clerics have continued to 
receive state perks especially from the Saudi and Qatari 
Governments, but also from the Governments of Dubai, Kuwait, 
and Bahrain as well.
    Finally, while President Obama claims that it is important 
to have tough conversations with our allies in the Gulf, and 
said this in advance of the Camp David Summit, there wasn't 
really clear indication in the public view that this sort of 
conversation has actually been had. Unfortunately, this is all 
too typical for U.S. administrations, both Democrat and 
Republican, when it comes to the Gulf. All six GCC states are 
systematically demolishing the constituencies needed to move 
their countries in a more moderate direction. Washington needs 
to get tougher with Gulf security chiefs, whom we treat as 
partners against al-Qaeda, yet also preside over the sorts of 
egregious rights abuses that we know feeds extremism long term.
    Thank you. And with that, I look forward to your questions.
    [The prepared statement of Mr. Weinberg follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Dr. Weinberg.
    Dr. Katzman.

   STATEMENT OF KENNETH KATZMAN, PH.D., SPECIALIST IN MIDDLE 
        EASTERN AFFAIRS, CONGRESSIONAL RESEARCH SERVICE

    Mr. Katzman. Thank you, Chairwoman Ros-Lehtinen, Ranking 
Member Deutch, distinguished subcommittee members for asking me 
to appear on behalf of CRS (Congressional Research Service) on 
this important topic. I will summarize my remarks and ask that 
my remarks be submitted for the record.
    The United States has been a major actor and basically the 
guarantor of Gulf security for over 30 years. The United States 
still imports more than 15 percent of its oil from the GCC 
states. Containing a potential threat for Iran requires 
substantial cooperation with the GCC states. The GCC states 
express concern about how a final nuclear agreement with Iran 
might affect the region. They assert that broad sanctions 
relief will enable Iran to increase its assistance to regional 
factions in governments, such as President Assad of Syria, the 
Houthi rebels in Yemen, Shiite militia forces in Iraq, Lebanese 
Hezbollah, and hard line opposition factions in Bahrain. 
Sanctions relief could enable Iran to potentially enable Iran 
to modernize its armed forces, possibly to the point where Iran 
could deploy a large ground force across the Strait of Hormuz. 
Iran, too, now has been hampered by the lack of sea lift and 
ability to move across waterways.
    The GCC leaders are concerned that a nuclear deal could 
lead to a broader improvement in U.S.-Iran relations, but gives 
Iran's views in the region increase weight on the U.S. 
decision-making apparatus. There is a perception in the Gulf 
that the United States, as a consequence of a nuclear deal, 
could come to view the Gulf region as secure and walk away and 
or reduce--substantially reduce its military presence in the 
Gulf. That is a huge concern that the Gulf leaders have.
    There are, however, some possible benefits of a nuclear 
deal to the GCC. The GCC states conduct extensive trade with 
Iran, particularly the UAE. And economic growth in Iran would 
enhance, obviously, the economic--this trade and help the GCC 
economies. A nuclear agreement could, depending on what 
direction Iran goes after a deal, provide some movement, 
perhaps, on a political solution in Yemen and some regional 
energy projects that have been long discussed but have not 
moved forward because of sanctions, such as energy pipeline 
linkages between Iran and Kuwait, Iran and Oman, and Iran and 
Bahrain.
    Iran and the UAE could potentially resolve their 
territorial dispute over the three Gulf islands, Abu Musa and 
the Tunb islands, which the Shah seized, and the Islamic 
Republic completed that seizure by taking Abu Musa in 1992, 
putting its forces, IRGC forces, on Abu Musa. The 
administration has sought to reassure the GCC leaders. We have 
talked about the GCC summit, which came out with the strategic 
partnerships stipulating five areas facilitating arms sales to 
the Gulf, increasing U.S.-GCC cooperation on maritime security, 
cyber security, counterterrorism, military exercises, U.S. 
training, and a renewed commitment to building a Gulf-wide 
holistic missile defense against Iran's missile capabilities.
    Gulf diplomats indicate to me and others that working 
groups on these stipulated areas have now been established in 
the foreign and defense ministries of the GCC states, and that 
U.S.-GCC discussions on these areas are becoming more 
systematic and structured. Previously, the U.S.-GCC strategic 
dialogue was only at the level of U.S. Defense--Defense 
Secretary and Secretary of State, and now it has moved into 
down the bureaucracy, more institutionalized.
    Again, armed sales are a key to this relationship. Two of 
the countries, Kuwait and Bahrain are major non NATO allies. 
There have been substantial weapon sales to the Gulf states, 
obviously. And these armed sales have not only made the GCC 
states able partners, but in some way, they have emboldened the 
Gulf states. The Gulf states are flexing their muscles, so to 
speak, on regional issues. We have seen it in Libya, where the 
UAE conducted an air strike last year on a terrorist training 
camp without necessarily consulting the United States; Saudi 
Arabia has taken the lead in putting together this coalition 
that is intervening in Yemen with very minimal support from the 
United States, and perhaps the U.S. didn't think maybe this 
type of intervention was going to succeed.
    So we have that against the Houthis. Obviously, the GCC 
states were helping the military Government of CC and Egypt at 
the same time the U.S. was, you know, denying some weaponry to 
Egypt. So the Gulf states are emboldened and are acting, 
perhaps, because they feel the U.S. is not acting on some of 
these key interests that they have. Thank you.
    [The prepared statement of Mr. Katzman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Excellent testimony. 
And I will begin the question-and-answer period.
    This morning our full committee held a hearing on Iran, and 
some of the witnesses pointed out that the U.S. is no longer 
seen in the region as upholding our commitments to protect our 
partners from foreign aggression. So my first question to you, 
gentlemen, is even if the U.S. signs some sort of security 
cooperation agreement with the GCC countries, do they believe 
that we will uphold that commitment or have we lost trust with 
the GCC? You can keep the answers short, because I have 
several.
    Mr. Eisenstadt. I think the important point is I think they 
don't know. And I think the fact of the matter is that in light 
of U.S. behavior in recent years, the red line with regard to 
the Syrian CW and the initial U.S. red lines with regard to 
Iran's nuclear program and how those red lines have kind of 
moved in the course of negotiations, I think they probably have 
questions about the validity of any commitments that the United 
States provides.
    Plus I would just point, in terms of the joint statement 
that was made at the Camp David Summit, it was--as these kind 
of commitments go, it was a very kind of bland and--kind of 
statement that I think from the point--you know, that kind of 
reference U.N. Charter as kind of the grounds for U.S. support 
for its allies. And you know, it wasn't the treaty that was 
passed by Congress, although I am not sure that would--that is 
the way to go either. So I think they probably have a lot of 
questions. But the problem is, from their point of view, they 
don't really have anywhere else to go at this point.
    Ms. Ros-Lehtinen. Thank you. I know that some of you might 
want to participate in this. Let me ask you some other 
questions, and you can still answer it that way.
    At Camp David, the GCC needed to hear that the United 
States is committed to the Middle East region and committed to 
stopping Iranian expansionism. But instead, they received 
assurances about arms deals and general defense cooperation, as 
important as they may be. But we must ensure that sales of 
advanced weapon systems to the GCC are consistent with our 
larger goals, objectives and policies, including human rights 
concerns, maintaining Israel's qualitative military edge and 
also addressing the underlying problems that the GCC has beyond 
the surface level.
    And should a deal be finalized, we all know that Iran is 
not going to stop its destabilizing activities against the U.S. 
and against the GCC interests in the region. So what credible 
actions are the GCC countries asking from us in order to ease 
their anxieties about developments in the region, and what 
alternatives do you suggest in order to combat Iranian 
aggression and repair this difficult and already harmed GCC 
relationship?
    Mr. McInnis. Thank you. What I would add, and following up 
in the context of your previous question, Chairwoman, is that 
the GCC countries in conversations I have had with leaders 
there, indicate that it is more the issue that the United 
States is not one to understand the personal relationship 
issue. I think that we tend to underestimate how much they 
value personal commitments. When they see the President 
breaking red lines or, you know, even if there are rational 
policy reasons for it, with personal relationships, it is 
really hard for the Gulf leaders to rebuild those. And I think 
we tend to be too callous about that.
    The second thing is I think that the GCC leadership does 
not think that we understand the Iranian threat adequately, and 
that we do not understand the existential problems that the GCC 
feels it faces. It thinks that the United States underestimates 
the destabilizing internal threat that Iran poses to them. I 
think this is a real key problem. I think the President was 
very dismissive of that issue at Camp David. And I think 
because of that, bearing in mind the human rights concerns, we 
do need to increase our capacity to work on counterterrorism 
issues with the GCC countries, because their fears of internal 
instability, frankly, trump all decision-making. We have to be 
sensitive to that in making them feel reassured that we are 
there to strengthen overall security in the region, while at 
the same time, we do want them to change certain policies.
    Ms. Ros-Lehtinen. Thank you so much. And let me continue, 
and you can answer whichever ones you like.
    I am concerned, as you have heard me say, that the sale of 
advanced weapon systems to GCC countries is contributing to a 
conventional arms race in the region, and that we are running 
into the risk of diminishing Israel's qualitative military 
edge, which is still a U.S. law whether the administration 
wants to enforce it or not. What kind of weapons can we expect 
to see the U.S. offer GCC countries in the months ahead beyond 
those deals that are already pending, and how would this impact 
Israel's qualitative military edge, and will GCC countries look 
toward Russia or China to fulfill their military needs? And if 
so, what kind of threat does this pose to our security 
interests in the region?
    Mr. Weinberg. So I think at the Camp David Summit, one of 
the measures that was a constructive U.S. proposal for 
addressing some of these concerns, both QME--rather, that 
doesn't undercut QME, but is still a constructive thing we can 
do for our Gulf allies, is the creation of a Foreign Military 
Sales office specifically devoted to GCC-wide sales.
    So this is something that could decrease bureaucratic 
hurdles while not necessarily providing new weapon systems that 
would be problematic. The U.S. did not provide promises to give 
the Gulf states the F-35 joint strike fighter. It did not 
provide, as far as I am aware, commitments for improved bunker 
busters. These are two things that the Israelis would be very 
uncomfortable about.
    I think it is important to recognize that, indeed, the Gulf 
states are not going to be reassured by forward U.S. 
deployments or arms sales alone. They need to know that the 
U.S. has their back when it comes to Iran's destabilizing 
regional activities or else otherwise they are basically on 
their own when it comes to using those American weapons.
    One area where the Russians have been turning to--the 
Saudis have been turning to the Russians, have been reports 
that they are seeking the S-400 missile system. They also 
likely are seeking from the United States countermeasures 
against the S-300 that the Iranians recently acquired. And that 
is going to be a real challenge going forward without that 
undermining QME.
    Ms. Ros-Lehtinen. I agree. And, Dr. Katzman, I am going to 
ask one more question, but you can answer whichever one I have 
already posed. While we contemplate additional GCC arms sales, 
we must ensure that we aren't losing sight of our commitment to 
human rights in the region. How can the U.S. continue to 
promote human rights in the Gulf, where the political, social, 
and religious repression is some of the worst in the world, 
while maintaining our strategic partnership? This a difficult 
dance for us, isn't it?
    Mr. Katzman. Well, actually, I would say a lot of the human 
rights groups were somewhat upset a few weeks ago when the U.S. 
announced it was going to proceed with an armed sale to Bahrain 
that had been held up on human rights grounds in 2011. This was 
a September 2011 sale of basically Humvees, tow missiles, anti 
tank weaponry. And the administration stated that Bahrain had 
been improving its human rights record.
    I think what I have heard, many in the region saw it, 
really, as a way of implementing the Camp David commitments to 
release certain armed sales that the GCC states wanted and to 
show that the U.S. is implementing Camp David. So the human 
rights question in the Gulf is a very difficult question. You 
know, the Summit, human rights were barely mentioned at the 
Camp David Summit. And this almost didn't come up at all. We 
have had several leaders visit in the past 2 years. The Emir of 
Kuwait has been here. Sheikh Mohammad bin Zayed, who is the 
defacto leader of UAE has been here, Sheikh Emir Tamim of Qatar 
has been here, and the communiques based on the meetings that 
have gone on, barely have mentioned human rights at all. So 
these are some issues that some of the human rights groups are 
raising.
    Now, I just--I wanted to just comment on the QME issue. You 
know, again, Israel and the GCC states have the very same 
position on a lot of regional issues right now. So I think--and 
the Israelis and the GCC states are talking about a broad range 
of security issues that they never even talked with each other 
about at all previously. So, you know, to some extent that, 
perhaps, puts context to the QME discussion.
    I would also say in terms of the Iran deal, let's--for 35 
years the United States has not talked to Iran at all. So the 
only message the U.S. was getting about Gulf security, the 
region, was from the Gulf states. Now, the United States is 
getting Iran's point of view. The U.S. does not always 
necessarily put much weight on it, but at least the U.S. is 
hearing Iran's point of view. And what I am understanding from 
Gulf officials, is that has caused a problem because now they 
know that the U.S. is at least hearing Iran's point of view, 
which is mainly to complain about them, the GCC states.
    Ms. Ros-Lehtinen. Thank you very much. Thank you for 
excellent answers to my rambling questions.
    And Mr. Deutch is recognized for his question and answers.
    Mr. Deutch. Thank you, Madam Chairman. We discussed earlier 
today in an Iran hearing an issue that I would like to get this 
panel's thoughts on. We have--as these talks in Vienna move on, 
and as we move forward to see whether there is a deal that can 
be made, one of the big--the biggest issues is what sanctions 
relief would mean to Iran, what they would do with the $150 
billion that they would then have access to. And the argument 
has been made that it would more likely be used for domestic 
purposes, that it would not be, despite our concerns, that it 
wouldn't be used, that sanctions wouldn't be used to fuel 
regional mischief to fund terror, to do all the things that we 
worry so much about the Iranian regime for. What--how do the 
Gulf states view this? What is their--how do they view this? 
What evidence do they use to draw their conclusions? Any of our 
panelists.
    Dr. Weinberg, you seem anxious to answer.
    Mr. Weinberg. So I think there is an interesting comparison 
with how our Israeli allies view the Iranian threat that they 
face and how our Gulf allies view it. I think for our Israeli 
allies, the existential question is the nuclear one, and the 
IRGC issue is another major concern. I think for the Gulf 
states, the nuclear issue is a very major concern, and the 
nuclear component is the existential question for them. They 
basically see it as a core threat to their rule. And so when 
they see that Iran, in the last calendar year, increased its 
public budget allotment for the IRGC by 48 percent when Iran is 
under crippling sanctions----
    Mr. Deutch. I am sorry, Dr. Weinberg, to what amount?
    Mr. Weinberg. I don't have the numbers offhand, but you we 
can submit that for the record.
    Understandably, when they see that the IRGC is undoubtedly 
going to share in some portion of the windfall, I mean, even 
supporters of the Iran nuclear deal acknowledge that. It would 
be folly to say that they are not going to get any of the 
money. The question is how aggressive will they be with that 
money, and nobody in the Gulf is putting money on more 
moderate.
    Mr. Deutch. Right. So let me be more specific.
    Mr. Weinberg. Sure.
    Mr. Deutch. There are those who have argued that, in 
response to what I believe are valid concerns in line with your 
response to my question, that we don't really believe that more 
of their--that they would use much of this money to fund the 
IRGC to engage in the nefarious activities that they do around 
the world, because they have been able to do it already with a 
small amount of money, which I have a hard time really wrapping 
my head around. Because if they have been successful with a 
small amount of money, then why wouldn't they--Dr. Katzman, why 
wouldn't we expect that some part of that $150 billion, whether 
1 billion or 5 or 20, would be used? And if so, what could all 
of that additional money be used for?
    Mr. Katzman. Congressman, I agree with that question and 
the way you framed it. The issue--I would take some, perhaps, 
difference on the--Iran is having trouble. Iran is not having 
success universally. Yes, they have had some success in places. 
They are having tremendous trouble in Syria right now. I am not 
convinced in my analysis that more money would necessarily 
bring them to success in Syria where they seem to be having 
grave difficulty in Syria. Hezbollah is taking very large 
casualties in Syria. I am not convinced that there was--I was 
at a discussion the other day about Iran might give Hezbollah 
$1 billion, theoretically, of this money they are going to get. 
What would Hezbollah do with the billion--that is the thing. 
They are losing a lot of men; very tough to recruit; Hezbollah 
doesn't necessarily believe in fighting all over Syria, just on 
the border.
    So, yes, they would have more resources, but I think Iran 
is having a lot of problems in the region. They are having 
success in places, but they are also having problems.
    Mr. Deutch. My question isn't whether--I am not asking you 
to anticipate whether they would be successful in how they 
spent the money. My question is, is it realistic to believe 
that if they have access to $150 billion, that given this 
regime, some significant amount of money would go to fund 
terrorists, and that some significant amount of money would go 
to wreak havoc in the region? Mr. Eisenstadt.
    Mr. Eisenstadt. If I could just piggy back on Ken's 
comments. I agree with what he is saying, that Iran's allies in 
Syria are overstretched. We have seen them. They have been 
using recently Afghani Shiites and Pakistani Shiites. I think 
that is the answer. In the past, their preference has always 
been to fight to the last Arab proxy. Having money enables them 
to hire on additional people. They are now expanding their 
recruitment base to Afghan and Pakistanis. And more money means 
greater ability to recruit people. Now, whether they will be 
effective or not is another question. But I think, given the 
fact that they have committed their own people to combat for 
the first time in Iraq and Syria, and they prefer not to do 
that, they prefer to fight the proxies, money gives them 
additional resources to gain additional proxies.
    Again, I don't know if it will translate into greater 
effectiveness, but I think you can say that given the situation 
they are in, that that provides them potentially a new lease on 
life, at least in the short run.
    Mr. Deutch. Mr. McInnis, do you agree?
    Mr. McInnis. I would agree with that. And what I would add 
is that the strain that we are discussing on the Iranians' 
expeditionary activities right now is very significant. And 
when you think about what they are having to give to Assad to 
kind of keep him afloat, the amount of money that is coming in 
that can help offset some of those negative things on their 
budget right now allows them to kind of do what they want to 
do. Frankly, especially what I consider to be the more 
expansionist activities in Yemen, for example, that is 
something that makes me worried. If they can kind of hold the 
fort better in Syria and Iraq, the additional money coming in 
allows them to expand what they are trying to do in very, 
sometimes, odd ways inside Yemen to really pressure the Saudis.
    And I think what the Iranians have been looking for just as 
the Iranians always fear that we are surrounding them or trying 
to surround them--the Iranians are trying to surround Saudi 
Arabia and the Gulf states. That is the reason why you saw the 
recent exposure of the plot in Jordan that just came to light 
recently. When you look at their activity in Iraq, Jordan, 
Yemen, Bahrain, and potentially other places, the Iranians have 
kind of a latent capacity surrounding Saudi Arabia and the 
Emirates. And I think that is the concern. If they can hold the 
fort better in Iraq and Syria with additional money, it allows 
them to put greater pressure on the Saudis.
    Mr. Deutch. Thanks.
    Madam Chairman, I just--I appreciate the input from our 
panelists. And as we move forward in these talks, this is very 
helpful, because a sober analysis of the potential outcome of 
this negotiation, I think, requires us to acknowledge that in 
all likelihood, sanctions relief, if and when it comes, is 
going to result in more money. However it is spent, it is going 
to result in more money creating more problems in the region. I 
just think that, perhaps, has not been part of the discussion 
as much as it should have, and I hope that with this from our 
panelist, we will have an opportunity to inject into it today.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. We turn to 
Mr. Boyle of Pennsylvania.
    Mr. Boyle. Thank you. I wanted to, just a quick follow-up 
on the last point that Ranking Member Deutch was making. 
Unfortunately, we have a terrible history in this part of the 
world of funding and of sending armaments for one purpose, and 
then suddenly seeing those armaments used by a different group 
in a completely different purpose and reminded of that each and 
every day by the activities of ISIS. But the two questions I 
wanted to ask, though, weren't really on this point.
    The first, though, I think it was Dr. Katzman, you raised 
it in your opening statement. One of the unintended 
consequences, positive unintended consequences of this 
protracted negotiation that P5+1 has had with Iran is that we 
finally found something that would bring the Gulf--the GCC 
states and Israel a little closer together and cooperating. I 
am just wondering if you see this--this is--you know, it is not 
completely possible to accurately predict this, but I am 
interested in your sense of whether or not this is a temporary 
phenomenon, or this actually could be the beginning of a 
permanent improving of relations and actually working together?
    Mr. Katzman. I will address it further. Thank you.
    The way I would frame it is the GCC and Israel still have a 
huge difference of opinion on certain regional issues, mainly 
the Palestinians, Arab-Israeli dispute. But I think they see 
that as sort of an emotional and political dispute. On Iran, 
they have a strategic agreement. Israel and the GCC have an 
exact same strategic analysis, and they have a strategic 
alignment that Iran is the key threat to the region; Iran 
cannot have a nuclear weapon; Iran must be contained and 
deterred, and so that has brought a level of strategic 
dialogue, as quiet as it is, between Israel and the GCC, as has 
ever been witnessed really, since Israel was formed.
    Mr. Boyle. Right. So the follow-up, I am more on--if we can 
project, and once, let's say, whether an agreement is reached 
or not, the Iranian nuclear negotiations are now, one way or 
the other, no more, we are into the fall, we are into next 
year, I am interested in your view to project forward, whether 
or not you think this could be the beginning of a longer shift, 
or this is simply a one-time, all about Iran, and then go back 
to business as usual?
    Mr. Katzman. It depends. I think if Iran goes back in the 
direction that I think most of us think, which is they will use 
the resources to continue to try to expand their influence in 
the region, then I think that basis of strategic cooperation 
would continue.
    Mr. Weinberg. If I may offer a different perspective on 
this. I am much more pessimistic in this regard. I went on to 
the Saudi state news channel's Web site recently, and there was 
an article in which they talk about alleged Israeli overflights 
in Lebanon. But the way in which they talk about these are the 
``enemy'' Israeli Air Force. When you look at these sorts of 
preachers whom the Saudi king has surrounded himself with, on 
the official state Ulema council, some of the other preachers 
whom he hugs and kisses, these people have a long record of 
inciting against Christians and also inciting against Jews.
    And there was recently much talk about an unofficial 
dialogue between a former Israeli official and a former Saudi 
official. So what? I mean, this was, as I understand it, a very 
unofficial level, and it was covered in a much lesser level in 
Saudi press as it was than it was in the Israeli press. I don't 
think the Saudi Government is really in a position to do 
anything beyond the security--the quiet security and strategic 
intelligence coordination which was already going on a decade 
ago.
    Mr. Boyle. Thank you. I would just add, Dr. Weinberg, your 
opening remarks, I was very much listening. And I think it is 
worth repeating the reminder that a number of these states that 
we can cooperate with on a number of strategic areas still are 
pretty large funders of anti-American and anti-Semitic rhetoric 
and hate. And that is something that we had better always keep 
in both the back and the front of our minds. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Boyle. And Mr. 
Clawson is going to take over for me. Meanwhile, I will 
recognize Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. You are so kind. 
Thank you, Mr. Clawson. Mr. Clawson, if you wish to go, I, of 
course, would defer to you. Okay. Thank you very much. Welcome 
to our panel. Fascinating discussion. If I understood what Dr. 
Weinberg just said to Mr. Boyle, Mr. Katzman, he was saying, 
let's not overstate this, you know, level of cooperation, that 
the enemy of my enemy is my friend kind of status that has 
descended on the GCC and its relations with Israel. Did I get 
that right, Mr. Weinberg? I did?
    Mr. Weinberg. You did.
    Mr. Connolly. So, Dr. Katzman, you disagree, you think 
actually it is of a different elevation than in the past and 
worthy of some note?
    Mr. Katzman. Yes. I mean, I am not disputing what Dr. 
Weinberg is observing. But I think a lot of it is the basic 
culture and approach of the population and people way below the 
leadership level in the GCC. And I tend, perhaps, because of my 
background or whatever, to give more weight to what is going on 
at the government-to-government level and to not necessarily 
look at each cleric. These clerics have been around, Youssef 
al-Qaradawi is in Qatar. He is one of the most inflammatory 
clerics in the Islamic world. He is in Qatar. There were 9/11, 
there were al-Qaeda activists who transited through Qatar 
before 9/11. These things go on.
    Mr. Connolly. Right. But, I mean, take Qatar, for one 
example. I mean, there is all kinds of behavior we could decry 
and call out and not like. On the other hand, they have 
actually been useful interlocutors in some other situations, 
including on behalf, well, de facto on behalf of Israel. Is 
that not correct?
    Mr. Katzman. Qatar has also been very helpful in 
Afghanistan. Without Qatar, we probably would not have gotten 
Mr. Bergdahl back. They are interlocutors on any number of 
issues absolutely.
    Mr. Connolly. Okay. So we have a mixed record of behavior. 
We would like everyone to be perfect and do what we think is in 
everybody's best interest. But it is a problematic area at 
best, the Gulf. I want to go back to sort of the origins of 
this hearing. So, Dr. Katzman, the GCC reps were invited to 
Camp David to meet with the President and his team, is that 
correct? And what was your understanding of the purpose of that 
summit or that meeting, set of meetings?
    Mr. Katzman. Well, the summit was announced simultaneously 
when President Obama briefed the Nation on the April 2 
tentative nuclear accord with Iran, the framework accord. So it 
was in connection to that certainly.
    Mr. Connolly. As a longtime analyst and observer of the 
region, were those productive meetings from your point of view?
    Mr. Katzman. From everything I have heard, the Camp David 
summit was more productive than was anticipated. There were 
very low expectations. Only two of the heads of state attended. 
King Salman and then King Hamad of Bahrain pulled out, you 
know, about a day before. So there were very low expectations. 
And my understanding is the summit far exceeded the 
expectations.
    Mr. Connolly. In far exceeding the expectations, is an 
element of that a sense of reassurance by the GCC that the 
United States was actually quite serious about what it was 
trying to achieve in the Iran nuclear negotiations? Because I 
assume that was the big elephant in the room.
    Mr. Katzman. Yes. I mean, I think the GCC statements on the 
nuclear deal have evolved. And I think it has been somewhat 
more positive, not outright positive, but more positive than 
they were before the Camp David summit on the nuclear deal. 
Yes, they have become more positive on it, yes.
    Mr. Connolly. Do you feel that the United States was 
successful in providing reassurances, both in terms of their 
collective security and in terms of where we are headed in this 
relationship with Iran?
    Mr. Katzman. That is my understanding, yes, sir.
    Mr. Connolly. You know what? My first trip to the Gulf was 
in the early 1980s to mid 1980s. I was there right after the 
revolution in Iran and when we reflagged the Kuwaiti oil 
tankers. And what struck me and surprised us when we went, we 
were expecting all the Gulf, the GCC nations, I keep on wanting 
to say G7, forgive me, GCC nations to be really as preoccupied 
as we were with the Ayatollah Khomeini and the revolution in 
Iran and the threat that posed to the region and so forth. They 
weren't particularly focused on that. In the 1980s, they were 
focused on Iraq and Saddam Hussein. I might just observe that 
the preoccupation with Iran today is logical. They are the big 
menace now that Iraq has been defenestrate, and Saddam Hussein 
is no more. And it is perfectly understandable, and it has to 
be dealt with, but it is not a unique--I mean, depending on who 
is strong at any given moment in the region, that is who GCC 
members are going to be concerned about, given size and 
proximity and the nature of the military threat.
    So it has to be dealt with. It can't be minimized. But I 
think some of the rhetoric we have heard about broken 
relationship and lacking credibility and fractured this and 
fractured that, I don't think so. And I would agree with your 
characterization, Dr. Katzman. Actually, the meeting at Camp 
David turned out, press expectations notwithstanding, more 
successfully than one might have expected. And I think 
reassurances apparently were made that were well received. I 
don't want to overstate it, but I would hardly call that a 
fractured relationship in the Gulf between them and the United 
States. With that, I yield back, Mr. Chairman. Thank you.
    Mr. Clawson [presiding]. Thank you. Sorry for coming late, 
gentlemen. We appreciate you coming in today. I was in a 
subcommittee on Africa. So we get double booked here. So it 
certainly wasn't meant to be any kind of disrespect. So if any 
of my questions or comments are repetitive, I ask your 
forgiveness for my absence. When we voted last year and again 
this year on our country's, my country's, your country's 
involvement in the Syrian conflict, I voted no, because it felt 
like, to me, another bad war with very limited chances of any 
meaningful success, with the possibility of acceleration of our 
involvement, and one more kind of no-win situation in that part 
of the world.
    And I don't like sending my own sons and daughters of my 
constituents to die in faraway places without a meaningful 
payback. And as the son of my oldest sister prepares for his 
second tour in Afghanistan, in a face-to-face war with the 
enemy, I just have a hard time getting there unless I see 
victory in the cards, which I would love to see. Then when I 
think about the backdrop of this Iranian deal, I say to myself 
sanctions go away, these guys get more money to fight us in 
places like Afghanistan and Syria and other places. The Gulf 
states, by and large, are going to sit it out. And a big mess 
just got messier.
    Am I being overly pessimistic here? I look now at the money 
we have spent in Syria and where we are, what, a year, almost a 
year later, $1 billion, 60 people trained or whatever, and this 
feels like a sinkhole of money, lives, and confidence that will 
only be made worse if this deal goes through.
    So I know you are going to tell me why I am mistaken. So I 
turn it over to you all to give the counterpoint here. 
Remember, we are going to come back in 6 months and we are 
going to do a business review and see if it really has gotten 
any better here. With that, I yield to whoever would like to 
answer first.
    Mr. Eisenstadt. Mr. Chairman, actually I share a lot of 
your concerns. I think one of the challenges we face in dealing 
with the challenge posed by ISIL in Iraq and Syria is basically 
our strategy is contingent on our allies' policies, and what I 
am talking about with regard to the Iraqi Government and their 
willingness to engage in Sunni outreach and create an inclusive 
political system, which flies in the face of the zero-sum 
politics which tend to dominate Iraqi politics and the politics 
not all the countries in the region, but many of the countries 
in the region.
    But the challenge we face is that we have seen what 
happened in Syria as a result of 3 or 4 years of non-
engagement, and that it creates a vacuum that is then filled by 
extremists. And, in fact, the failure of the United States to 
engage earlier in Syria created, and tried to create, tried to 
create, we have to acknowledge there is no guarantee that our 
efforts to create a moderate opposition will succeed. But our 
efforts to try to create a third way could then perhaps suck 
away resources and manpower that are now going to al-Qaeda 
affiliates and ISIL. So the challenge is to find the right 
balance.
    I agree, I don't want Americans on the ground engaged in 
combat again. But, on the other hand, walking away or 
disengaging, we have seen what has happened. We still have 
vital interests there. What happens in this part of the world 
has implications for, first, our allies, but it is already we 
are seeing that ISIL is influencing people here to act as lone 
wolves and engage in attacks. So the challenge is finding the 
right balance. And I actually share the administration's 
concerns and I support a light-footprint approach, though I 
would say that it would have to be, doing a light-footprint 
approach that entails more than the administration is doing. 
But, again, the challenge is finding the right balance because 
we have seen what happens when we don't engage. But then our 
allies also do things, act on their impulses which are not 
always the healthiest ones and sometimes they have supported 
groups that are either al-Qaeda affiliates, or very close to 
being, you know, they are kind of extremist in their 
orientation. And that is not good either.
    Mr. Clawson. Do you think that lifting sanctions will put 
more guns into the wrong hands in the region?
    Mr. Eisenstadt. That is one of the dangers of that course 
of action. And the problem is, we will never be able to square 
the circle with all the, you know, there are so many moving 
parts with regard to our policies in this part of the world, 
that you are never going to be able to iron out all the 
contradictions in U.S. policy. You can manage them.
    So I am supportive of a deal with Iran that advances our 
interests. It will remain to be seen if the deal we get 
actually does that. But while doing that, and if that entails 
sanctions relief, as it necessarily would have to, we have to 
find ways to mitigate that by doing other things, like I said, 
while extending a hand to Iran, we still also have to push back 
against Iranian efforts to expand their influence and to engage 
in proxy warfare in the region. That is also a driver of ISIS.
    Iran's involvement in Syria and Iraq also empowers ISIS. So 
I know it is like, you know, sometimes it makes my head explode 
too when I try to think of all this stuff because it really is 
almost impossible to iron out all the contradictions. But you 
need to try to manage it. And walking away, we have seen what 
happens when we are not engaged.
    Mr. McInnis. I would just add on that point that, and we 
have been talking about this in general, but there needs to be 
recognition that what is happening in the region is, yes, their 
role. The mistakes of U.S. strategy and policy have helped 
create the problems we have there right now. But the real 
issues are what the other regional states have done. And you 
look at what Iran's strategies have been in the region. They 
have been, aside from our own concern about what they are 
trying to achieve, even for their own purposes what they are 
trying to do has created enormous amounts of failure, at least 
right now. And that what they are facing is the fact of what 
they have done in Syria and what they are doing in Iraq is not 
necessarily succeeding.
    At the same time, our allies within the GCC, they are not 
nearly as sophisticated on these types of asymmetric proxy 
warfare efforts that Iran is able to do, which it is kind of 
failing at right now. But they are also in a position where the 
Saudis traditionally and the Emiratis and others, they throw 
money at groups and they fund these types of efforts, but they 
don't actually know how to build governance or build effective 
fighting forces. We have to recognize the limits of the players 
there. If we are going to leave, kind of withdraw and just kind 
of let this play out, we have to recognize the limits of the 
players there.
    And the fact that if we are going to make this work, if 
this is going to keep ISIL from becoming a worldwide problem 
for us, we are going to have to find ways to work with our 
allies in particular to learn how to fight these wars better. 
And that is one of the reasons why the encouragement that we 
saw, perhaps, from Camp David, that we need to start creating 
these types of Arab rapid reaction forces or help them train 
better how to build and work with fighting forces in other 
countries. People talk about: Should Saudi Arabia create its 
own version of the Quds force? I don't know. That is a really 
tough question.
    But this is something where we have to recognize the limits 
of what we have there. The other issue when it comes to the 
sanctions relief, and I hit this on my earlier points but 
wanted to hit it again, on the conventional side is a huge 
problem, especially if we start seeing a relaxation of the 
conventional arms embargo or the missile technology control 
regimes. Those are things that could happen in a deal. And if 
that happens, we could see a real shifting of the conventional 
balance of power in the Gulf in a direction that is dangerous 
for the U.S. Navy, U.S. Air Force, in addition to the pressure 
it is going to put on our Gulf allies and accelerate the 
conventional arms race that the chairwoman was mentioning 
earlier. So I think on both the asymmetric fight, the proxy 
fight, and the conventional fight, the potential nuclear deal 
is a real disaster for us.
    Mr. Weinberg. You had mentioned the fight in Afghanistan. 
And I just want to note a terror finance case that relates. 
There was an organization known as Revival of Islamic Heritage 
Society in Kuwait which has branches all over the world, 
including in Pakistan. The United States first sanctioned the 
Pakistan branch and another regional branch, and several years 
later, sanctioned the headquarters in Kuwait as well. And, yet, 
indications suggest that the Kuwaitis have never taken 
significant action against RIHS within their own territory, 
even though we believe that it was functioning, including in 
Pakistan, as a channel for funds to al-Qaeda in South and 
Central Asia. The reported office director of the Pakistan 
office, both before and immediately after it was under U.S. 
sanctions at the time, was a Jordanian national named Khalil 
al-Zeer, who then, for many years, went on to be the executive 
director of a prominent charity in Qatar named the Eid Bin 
Muhammad Al Thani Charitable Society. One of the founding board 
members of the Eid Bin Muhammad Al Thani Charitable Society, 
was recently sanctioned by the United States and the United 
Nation on charges of providing up to $2 million a month to the 
organization we now know as ISIS. Alzeer left the country in 
2014. And the organization threw him a going-away party.
    The most recent State Department counterterrorism country 
report said that one of the positive steps that Qatar took 
against terror finance was to deport an individual who was a 
terror financier of Jordanian nationality who worked at a 
Qatari charity. Could it be Khalil al-Zeer? It could. Could it 
be somebody else? It could. Regardless of who that individual 
is, the fact is that Qatar's supposedly positive step that the 
administration is citing for fighting terror finance is to 
deport somebody rather than arrest them and try them. That they 
did the same with Hamas financiers according to the Christian 
Science Monitor quite recently. And that Kuwait is doing the 
same with alleged Nusra Front financiers as well.
    Arresting them and releasing them is very worrisome. And 
until we get at this problem of seed funding going to terror 
groups throughout the world from primarily Gulf private 
financiers in these early stages when we get these start-up 
terror groups, it is going to be extremely hard to keep these 
conflicts from getting to the point where we need to go in, or 
our allies need to go in militarily and take on the problem 
when they have conquered territory.
    Mr. Clawson. You are making the point to me that, the way I 
would put it, we are undermanaging our foes, in this case, 
Iran, and we are undermanaging our so-called friends.
    Mr. Weinberg. Yes.
    Mr. Clawson. And my second conclusion on that is we are not 
helping Israel enough because they are right over there. And, 
you know, words like what you just said lead me to believe that 
if I were them, I would want a few extra weapons if everybody 
around me was arming like this. Dr. Katzman?
    Mr. Katzman. Thank you. I mean, again, I wouldn't dispute 
everything Dr. Weinberg is saying. But I would also note Kuwait 
is hosting the headquarters for our anti-ISIS mission right 
now. I would point out also that Qatar is hosting forward 
headquarters for U.S. Central Command. Yes, there are these 
actors in the Gulf states. We are not disputing that. There was 
an minister in Kuwait for the Awazem tribe, Al Ajmi, who was 
allegedly posting, making posts on Twitter and raising money 
for al-Nusra I believe. And the Kuwaitis fired him. Now, they 
didn't necessarily arrest him, they didn't punish him. But they 
did take him away from his ministry.
    So the issue is to get at some of this, what Dr. Weinberg 
is talking about, would probably require a level of U.S. 
intrusiveness into the internal dynamics, tribal dynamics, 
political dynamics. It would require a level of intrusiveness 
that might interfere with our broader strategic plan in the 
Gulf.
    Mr. Clawson. Okay. I really have to cut it off because we 
have got to go. I thank all of you for your participation and 
your patience as the committee comes and goes. But these are 
obviously life-and-death kind of stuff. So I appreciate your 
contributions today.
    [Whereupon, at 3:41 p.m., the subcommittee was adjourned.]
                                     
                                     

                            A P P E N D I X

                              ----------                              


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
